<html>
<title> - THE TAIWAN RELATIONS ACT OF 2013</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







                    THE TAIWAN RELATIONS ACT OF 2013

=======================================================================


                                 MARKUP

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                                H.R. 419

                               __________

                             APRIL 25, 2013

                               __________

                           Serial No. 113-16

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

80-550 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










                      COMMITTEE ON FOREIGN AFFAIRS


                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                      STEVE CHABOT, Ohio, Chairman
DANA ROHRABACHER, California         ENI F.H. FALEOMAVAEGA, American 
MATT SALMON, Arizona                     Samoa
MO BROOKS, Alabama                   AMI BERA, California
GEORGE HOLDING, North Carolina       TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            BRAD SHERMAN, California
DOUG COLLINS, Georgia                GERALD E. CONNOLLY, Virginia
LUKE MESSER, Indiana                 WILLIAM KEATING, Massachusetts














                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 419, To strengthen and clarify the commercial, cultural, and 
  other relations between the people of the United States and the 
  people of Taiwan, as codified in the Taiwan Relations Act, and 
  for other purposes.............................................     2
  Amendment in the nature of a substitute to H.R. 419 offered by 
    the Honorable Steve Chabot, a Representative in Congress from 
    the State of Ohio, and chairman, Subcommittee on Asia and the 
    Pacific......................................................    27

                                APPENDIX

Markup notice....................................................    58
Markup minutes...................................................    59

 
                    THE TAIWAN RELATIONS ACT OF 2013

                              ----------                              


                        THURSDAY, APRIL 25, 2013

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2255, Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the subcommittee) presiding.
    Mr. Chabot. The subcommittee will come to order.
    Pursuant to notice, I call up H.R. 419, the Taiwan Policy 
Act of 2013, for purposes of markup and move its recommendation 
to the full committee.
    Without objection, the bipartisan amendment in the nature 
of a substitute provided to all members earlier this week will 
be the base text and is considered as read and open for 
amendment at any point.
    [H.R. 419 and the amendment in the nature of a substitute 
follow:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              ----------                              

    Mr. Chabot. I will now recognize myself for the purpose of 
making a brief opening statement. I have promised my colleagues 
that we will try to keep this short, so I will not use all of 
my 5 minutes.
    First, let me thank the ranking member, Mr. Faleomavaega, 
for his assistance in crafting this bipartisan amendment in the 
nature of a substitute and I, of course, want to commend and 
thank Chairwoman Ros-Lehtinen for sponsoring this legislation; 
we will hear from her very shortly.
    I am proud to be a cosponsor in this Congress, as I have 
been in the past, and as my colleagues know, the Taiwan Policy 
Act was adopted unanimously by the Foreign Affairs Committee in 
November 2011. I hope it will be adopted this afternoon in this 
subcommittee in a similar fashion.
    As one of the original founding co-chairs of the 
Congressional Taiwan Caucus, I am a strong supporter of this 
legislation that would strengthen the relationship between our 
two Nations. I want to emphasize the word two Nations. Taiwan 
is a democracy. It is a loyal friend and ally, and it deserves 
to be treated as such by the United States Government.
    I won't go through the bill point by point, but I do want 
to focus on a couple of issues. First, one only needs to look 
at a map to see that Taiwan sits in a very dangerous part of 
the world. When I first came to Congress in 1995, Communist 
China had a number of missiles pointed at Taiwan and each year 
since, that number has grown from a couple of hundred to 
approximately 1,600 short- and medium-range ballistic missiles 
aimed at Taiwan today, our friend and ally.
    Since 2006, Taiwan has been unsuccessful in procuring new 
F-16 C/D fighter jets. I am told that the Obama administration 
currently ``has under consideration'' an arms sale package that 
may include the F-16 C/D. This legislation would authorize 
those sales and would provide a very important security shield 
to Taiwan as it faces potential aggression from China.
    I also want to briefly discuss a matter which this 
legislation addresses, the issue of restrictions on diplomatic 
visits by high ranking Taiwanese officials, which is something 
I have always felt is both insulting and counterproductive. I 
can remember joining a number of my colleagues, about 25 years 
ago flying up to New York City one evening after votes--about 
25 of us went--to meet with then Taiwanese President Chen Shui-
bian, a democratically-elected leader and a great friend of the 
United States. We traveled to New York to meet with him because 
he was not allowed to travel to our capital here in Washington, 
DC, because it might offend the bullies in Beijing.
    I remember veiled threats from Communist China when former 
Taiwan President Lee Teng-hui, known as the father of Taiwanese 
democracy, wanted to visit his alma mater at Cornell 
University. And I vividly remember meeting Taiwanese legislator 
Mark Chen in our Capitol here in Washington. Only a few weeks 
later, I had to travel to Baltimore to meet with him because he 
had become Foreign Minister, and because of his new position, 
he was no longer welcome to Washington.
    That is just plain nonsense. The Taiwan Policy Act before 
us this afternoon will address that issue by permitting senior 
leaders of Taiwan to enter the United States under conditions 
of appropriate respect and permit meetings between high level 
Taiwanese and U.S. officials in all U.S. Executive departments.
    This is an excellent bill, which in a number of areas, 
strengthens our relationship with our friend and ally. I urge 
my colleagues to support it. I will now recognize my good 
friend from American Samoa, the ranking member of this 
subcommittee, Eni Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman, and I want to 
commend you for your leadership and initiative that you have 
taken also in working closely with our colleague, Chairwoman 
Ros-Lehtinen, in crafting this piece of legislation which I 
think is a positive direction in terms of making sure that the 
leaders of the people of Taiwan are given every expression of 
self-determination in their ability to practice a democratic 
form of government, as they are doing now. And doing so, too, 
Mr. Chairman, I want to recognize the presence of the 
gentleman, not only was he the author and the primary moving 
force in establishing what we then passed into law, which is 
the Taiwan Relations Act, a former chairman of this 
subcommittee, the gentleman from New York, my dear friend, and 
I am sure you know him, Congressman Lester Wolf. He is here 
with us. I appreciate your being here with us, Congressman 
Wolf.
    And I think the cornerstone of this whole Taiwan Relations 
Act as it relates to some of the changes that we are about to 
make in amending some of the provisions are the fact that we 
want to be absolutely certain that the people and the leaders 
of Taiwan continue to practice their democracy. And as you 
know, it is my understanding that in the advent of what 
happened in the, how the whole world had changed its course in 
terms of President Nixon's ability then to provide a dialogue 
and then eventually I guess you might say literally changed the 
course of history in looking at and Taiwan was one of the 
probably the central issue of whether or not the leaders of 
China were going to establish a better working relationship 
with our country. And as it turned out, Taiwan was left 
purposely to the extent if there is ever a, my understanding in 
principle, that if there is ever to be change on the political 
landscape in terms of how Taiwan is to be governed, it is to be 
done peacefully between the people and the leaders of Beijing 
as well as with the leaders of the people of Taiwan.
    And I think the Taiwan Relations Act has been that bastion 
of making sure that the people of Taiwan are fully protected in 
that regard of their right of self-determination and democracy.
    What happens in the future? As you know, the advent of what 
has happened in recent years is the elections where the people 
of Taiwan have made their wishes known for a different policy 
in terms of how to deal with Beijing in that respect in terms 
of its political status. That is entirely left out. But on the 
question of promoting greater economic and trade relations 
between Beijing and Taiwan, this has become true now. What I 
have always been curious about, Mr. Chairman, is the fact that 
before this change of policy, in actuality, Taiwan and China 
have had over a $100-billion trade relationship unofficially 
and informally for all those years prior to this change now 
where now they are a better closer working relationship as far 
as economics and trade development is concerned.
    So with that, I want to commend you again for your bringing 
this piece of legislation before the committee. And as I said, 
I do support the principles and what you are trying to achieve 
here, and I look forward to working with our colleagues to see 
if there are any other positive amendments that will be helpful 
in bringing this legislation to a successful completion before 
we move it on to the full committee.
    And with that, Mr. Chairman, I yield back.
    Mr. Chabot. Thank you. The gentleman yields back. I would 
like to thank the ranking member for his statement.
    I would now like to recognize the gentlelady from Florida, 
the former chair of the full Foreign Affairs Committee and now 
the chair of the Subcommittee on the Middle East, Ileana Ros-
Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. I thank 
you deeply, and Mr. Faleomavaega, and I thank your dedicated, 
hardworking staff for working with my lazy bones--no--with my 
also hardworking dedicated staff in order to bring this 
bipartisan bill to markup this afternoon.
    I would also like to thank the co-chairs of the 
Congressional Taiwan Caucus, Albio Sires, Mario Diaz-Balart, 
Gerry Connolly, and John Carter, for fully supporting and 
cosponsoring this important legislation.
    I am so glad that you pointed out Mr. Wolf's attendance 
here today because he knows how important the Taiwan Relations 
Act has been to the relation between our two Nations, the 
cornerstone of our policy, and Taiwan continues to be such an 
essential ally of the United States. This bill reiterates to 
the world, and more importantly, it tells the Taiwanese people 
just how deeply we value that friendship.
    This bill will further strengthen our relations by, as you 
already had pointed out in your opening statements, permitting 
senior Taiwanese leaders to meet with U.S. officials in all 
executive branches, authorizing the sale of F-16 C/D fighter 
aircraft to the Armed Forces of Taiwan, authorizing the 
transfer of decommissioned class guided missile frigates to 
Taiwan and supporting Taiwan membership in international 
organizations such as the United Nations and the International 
Civil Aviation Organization.
    So Mr. Chairman, Mr. Ranking Member, thank you again for 
your hard work in bringing this bill to markup. It is an 
important step forward in solidifying our close alliance with 
our democratic ally, Taiwan, and I urge my colleagues to 
support its passage. I thank you so much, Mr. Chairman and 
Ranking Member.
    Mr. Chabot. I thank the gentlelady and she yields back.
    Mr. Faleomavaega. Will the chairman yield?
    Mr. Chabot. Yes.
    Mr. Faleomavaega. Mr. Chairman, I just want to thank my 
dear friend from Florida for her comments and want to note of 
interest is the fact that Taiwan currently has formal 
diplomatic relations with 23 nations in the world and this is 
something of an irony in terms of how do we work out a 
situation in terms of dealing with Taiwan. And as you mentioned 
earlier, I remember distinctly when President Lee tried to 
visit his alma mater, Cornell University, where he received his 
doctorate in agricultural science and there was a big boo-hoo 
as to what is wrong the making a visit just for academic 
purposes and to do that, and I recall that very distinctly that 
caused an international, which to me it is really not that, I 
think it was, it is very good. We need to open this up.
    If we allow countries that are of highly questionable 
reputation for their leaders to come to our country, why are we 
not extending the same courtesy for leaders and people like 
Taiwan that practice democracy?
    Thank you.
    Mr. Chabot. Thank you. The Chair will reclaim the time.
    I would also like to acknowledge, as some of my colleagues 
have, the importance of Congressman Wolf. We worked together 
and have seen each other in Taiwan and here in the United 
States and New York and elsewhere working on Taiwan-American 
issues and I thank you for your leadership both in Congress and 
since you have left, Congressman.
    Are there other members who would like to speak on Taiwan?
    The gentleman from Pennsylvania, Mr. Perry, is recognized.
    Mr. Perry. Thank you, Mr. Chairman. And thank you Ranking 
Member. U.S.-Taiwan ties today undoubtedly remain strong; 
however, our operative approach to this vital relationship is 
currently shackled by many self-imposed and counterproductive 
constraints that exacerbate Taiwan's diplomatic, political and 
economic isolation. While China has increased its leverage and 
pressure on Taiwan forcing it into its orbit, we are missing 
opportunities to leverage Taiwan's considerable strengths and 
capabilities as a reliable and like-minded partner in 
confronting common challenges.
    In light of the momentous challenges that have occurred 
both within and outside of Taiwan over the last few decades, it 
is time for us to formulate a new vision in Washington for a 
bilateral relationship. I believe we shall break through the 
barriers of conventional wisdom and mainstream thinking and 
work toward the normalization of relations with Taiwan as we 
did 40 years ago with China.
    I believe as you do, Mr. Chairman, that the legislation we 
are considering today will do just that, and I thank you and 
the ranking member, and I yield back.
    Mr. Chabot. The gentleman yields back. Are there any other 
members who would like to make a statement?
    The gentleman from California, Mr. Rohrabacher, is 
recognized.
    Mr. Rohrabacher. Mr. Chairman, 2 years ago, when we were 
debating this issue, there was a side, a little side issue 
there that was going on and that was--but it was very 
indicative of what the Taiwan Relations Act and what Taiwan is 
all about. And what it was is the Falun Gong, which is of 
course a Chinese native religious organization dealing with 
yoga and meditation, who are now being brutally suppressed by 
the Communist Chinese regime in Beijing, that they had over the 
years been able to broadcast on a television satellite that was 
located in Taiwan and actually a majority of the share of it is 
owned by the Taiwan Government, well, during the last, 2 years 
ago, there was a discussion about Taiwan making friends with 
Beijing by basically joining in on this suppression of the 
Falun Gong by not letting them have access to these TV 
broadcasts. And I called up President Ma at the time and asked 
him to take that into consideration, to please permit the Falun 
Gong to continue their broadcasts otherwise, and this is very 
symbolic to those of us who want to know whether or not 
standing up for Taiwan, why should we stand up for them if they 
are doing things like this? And let me add that the Taiwanese 
Government, President Weng responded, and the Falun Gong were 
not kicked off the TV station.
    Let us hope this year I would again call on the Taiwan 
Government because 2 years ago they only got a 2-year contract 
and they are up again, and I would hope that the people of 
Taiwan, especially the government in Taiwan, if it needs to be 
treated with any special consideration, it won't be given that 
or they can't expect that if they are treating--if they are 
doing the bidding of the Communist Chinese regime in Beijing by 
entering into the suppression of the Falun Gong.
    So I would hope that they would continue to permit this 
group to have access to the airwaves and demonstrate that they 
are an independent and free country.
    Thank you very much, Mr. Chairman.
    Mr. Chabot. Thank you very much. Having met with Falun Gong 
myself many times over the years, I think the gentleman's 
remarks are absolutely correct and the repression that they 
have seen, particularly in China, is shameful and some of the 
photos of the torture they have gone through are extremely 
disturbing. Thank you for raising the issue.
    Are there other members that would like to make a 
statement? If not, are there any amendments?
    Hearing no amendments, then, the question occurs on the 
motion to report the bill favorably, as amended.
    All those in favor, signify by saying aye.
    Opposed, no.
    The ayes have it in the opinion of the Chair, and the 
motion is approved.
    Without objection, the bill will be reported favorably to 
the full committee in the form of a single amendment in the 
nature of a substitute and the staff is directed to make any 
technical and conforming amendments.
    I want to thank all our members and staff and others who 
are interested in being here today and for their assistance and 
cooperation in today's markup.
    If there is no further business to come before the 
subcommittee, the subcommittee is adjourned. Thank you.
    [Whereupon, at 2:30 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 <all>

</pre></body></html>
